                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                                  CLOSEOUT NZEMORANDUM




OIG received an allegation of false statements and overcharging salaries in an NSF proposal'.
The complainant2stated that two university employees3who were named as principal
investigators in the proposal were fully fmded from other Federal agencies4and the NSF
proposal would constitute duplicate payments of salaries.

An investigation was conducted which included interviews, record reviews, and coordination
with the other affected government agencies. The investigation did not reveal any indications
concerning salary overpayments to the two university employees. One other Federal agkncy
conducted its own investigation, which it closed after its investigator5likewise found no
indications of overpayments to either university employee.                                 ,
